No,
IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

TOMMY LEE JONES, PETITIONER
-Vs-

UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE

ARTHUR JAY WEISS, in compliance with Supreme Court Rules, does
hereby Certify:

1. That he is a member of the Bar of the Supreme Court of the United
States.

2. That on the 22nd day of September 2020, he did deposit in the United
States Mail, with first-class postage fully prepaid, a copy of a Petition for Writ of
Certiorari, Motion for Leave to Proceed in Forma Pauperis, Certificate of Service
and Certificate of Filing in the above-entitled cause, addressed to the Solicitor

General; Department of Justice; Washington DC 20530.
/s/ Arthur Jay Weiss
ARTHUR JAY WEISS

Subscribed and sworn to before me
on the 22nd day of September 2020

wim MacDonald
Public, Stale of
Notary Public, Michigan

‘County of Mi on
LB he Ah» rein Som op et
M MACDONALD, Notary Public

Macomb, Acting in Oakland County, Michigan
My Commission Expires September 24, 2021
